U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 25, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: West Virginia v. Environmental Protection Agency, No. 20-1530
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 29, 2021.
The government’s response is now due, after one extension, on July 6, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 5, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1530
WEST VIRGINIA, ET AL.
ENVIRONMENTAL PROTECTION AGENCY, ET AL.

LOREN L. ALIKHAN
OFFICE OF THE ATTORENY GENERAL FOR
DC
400 6TH STREET, NW
SUITE 8100
WASHINGTON , DC 20001
202-727-6287
LOREN.ALIKHAN@DC.GOV
STEVEN ROBERT BLAIR
OFFICE OF THE ATTORNEY GENERAL
1302 EAST HIGHWAY 14
SUITE 1
PIERRE, SD 57501-8501
605-773-3215
STEVEN.BLAIR@STATE.SD.US
WILLIAM DANIEL BOOTH
MICHAEL BEST & FRIEDRICH, LLP
1000 MAINE AVENUE, SW
SUITE 400
WASHINGTON, DC 20024
202-747-9658
WDBOOTH@MICHAELBEST.COM
MICHAEL JAMES BOSTROM
LOS ANGELES CITY ATTORNEY'S OFFICE
AFFIRMATIVE LITIGATION DIVISION
200 N. SPRING STREET
14TH FLOOR
LOS ANGELES, CA 90012
213-978-1882
MICHAEL.BOSTROM@LACITY.ORG

NICHOLAS J. BRONNI
ARKANSAS SOLICITOR GENERAL
323 CENTER ST.,
SUITE 200
LITTLE ROCK, AR 72201
501 682-6302
NICHOLAS.BRONNI@ARKANSASAG.GOV
KRISTIN MERRITT BRONSON
CITY AND COUNTY OF DENVER
1437 BANNOCK STREET
SUITE 353
DENVER, CO 80202
720-865-8600
KRISTIN. BRONSON@DENVERGOV.ORG
JEFFREY ALLYN CHANAY
OFFICE OF THE ATTORNEY GENERAL,
STATE OF KANSAS, SUITE 301
MEMORIAL BUILDING, 2ND FLOOR
120 SW 10TH AVENUE
TOPEKA , KS 66612
785-296-2215
JEFF.CHANAY@KSAG.ORG
BLAKE R. CHRISTOPHER
OFFICE OF THE ATTORNEY GENERAL
700 CAPITOL AVENUE
SUITE 106
FRANKFORT, KY 40601
502-564-2611
BLAKE.CHRISTOPHER@KY.GOV

WILLIAM F. COOPER
STATE OF HAWAII DEPARTMENT OF THE
ATTORNEY GENERAL
425 QUEEN STREET
HONOLULU, HI 96813
808-586-1282
BILL.F.COOPER@HAWAII.GOV
CHRISTOPHE GAGNON COURCHESNE
MASSACHUSETTS OFFICE OF THE
ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MA 02108
617-963-2423
CHRISTOPHE.COURCHESNE@STATE.MA.US
MARK W. DELAQUIL
BAKER & HOSTETLER LLP
1050 CONNECTICUT AVENUE, NW
SUITE 1100
WASHINGTON, DC 20036-5304
202-861-1500
MDELAQUIL@BAKERLAW.COM
JEFFERY SCOTT DENNIS
ADVANCED ENERGY ECONOMY
1000 VERMONT AVENUE, NW
SUITE 300
WASHINGTON, DC 20005
202-380-1950
JDENNIS@AEE.NET
SEAN H. DONAHUE
DONAHUE, GOLDBERG, & WEAVER, LLP
1008 PENNSYLVANIA AVENUE, SE
WASHINGTON, DC 20003
202-277-7085
SEAN@DONAHUEGOLDBERG.COM

JAMES P. DUFFY
CLEAN AIR TASK FORCE
114 STATE STREET
6TH FLOOR
BOSTON, MA 02109
617-359-4077
JDUFFY@CATF.US
VALERIE MELISSA EDGE
OFFICE OF THE ATTORNEY GENERAL
STATE OF DELAWARE
102 WEST WATER STREET,
THIRD FLOOR
DOVER , DE 19904
302-739-4636
VALERIE.EDGE@STATE.DE.US
THOMAS M. FISHER
SOLICITOR GENERAL OF INDIANA
IGC SOUTH, FIFHT FLOOR
302 W. WASHINGTON STREET
INDIANAPOLIS, IN 46204
317-232-6255
TOM.FISHER@ATG.IN GOV
DAVID MICHAEL FLANNERY
STEPTOE & JOHNSON PLLC
P.O. BOX 1588
CHARLESTON, WV 25326
304-353-8000
DAVE.FLANNERY@STEPTOE-JOHNSON.COM

BENJAMIN MICHAEL FLOWERS
OHIO ATTORNEY GENERAL DAVE YOST
30 E. BROAD STREET
17TH FLOOR
COLUMBUS , OH 43215
614-466-8980
BENJAMIN.FLOWERS@OHIOATTORNEYGNE
RAL.GOV
PAUL ANDREW GARRAHAN
OREGON DEPARTMENT OF JUSTICE
1515 SW FIFTH AVENUE,
SUITE 410
PORTLAND , OR 97201
971-673-1943
PAUL.GARRAHAN@DOJ.STATE.OR.US
EUGENE GRACE
AMERICAN CLEAN POWER ASSOCIATION
1501 M ST. NW,
SUITE 1000
WASHINGTON, DC 20005
202-383-2500
GGRACE@AWEA.ORG
THEODORE HADZI-ANTICH
TEXAS PUBLIC POLICY FOUNDATION
901 CONGRESS AVENUE
AUSTIN, TX 78701
512-472-2700
THA@TEXASPOLICY.COM

MELISSA ANN HOLYOAK
UTAH ATTORNEY GENERAL'S OFFICE
UTAH STATE CAPITOL COMPLEX
350 NORTH STATE STREET
SUITE 230
SALT LAKE CITY, UT 84114-2320
801-538-9600
MELISSAHOLY-OAK@AGUTAH.GOV
JOHN B. HOWARD, JR.
OFFICE OF THE ATTORNEY GENERAL
200 ST. PAUL PLACE
BALTIMORE, MD 21202-2021
410-576-6970
JBHOWARD@OAG.STATE.MD. US
LAURA JENSEN
OFFICE OF THE ATTORNEY GENERAL
6 STATE HOUSE STATION
AUGUSTA, ME 04333-0006
207-626-8868
LAURA.JENSEN@MAINE.GOV
GABE JOHNSON-KARP
WISCONSIN DEPARTMENT OF JUSTICE
1 7 WEST MAIN STREET
PO BOX 7857
MADISON, WI 53707-7857
608-267-8904
JOHNSONKARPG@DOJ .STATE. WI. US
ELIZABETH JONES
CENTER FOR BIOLOGICAL DIVERSITY
660 S. FIGUEROA STREET
SUITE 1000
LOS ANGELES, CA 90017
213-785-5400
LJONES@BIOLOGICALDIVERSI TY. ORG

DEBRA S. KALISH
CITY ATTORNEY'S OFFICE
1777 BROADWAY
2ND FLOOR
BOULDER, CO 80302
303-441-3092
KALISHD@BOULDERCOLORADO.GOV
JAMES C. KASTE
OFFICE OF THE ATTORNEY GENERAL
2320 CAPITOL AVENUE
CHEYENNE, WY 82002
307-777-6946
JAMES.KASTE@WYO.GOV
303-777-3542(Fax)
SCOTT ALLEN KELLER
BAKER BOTTS LLP
700 K STREET, NW
WASHINGTON, DC 20001-5692
202-639-7700
SCOTT.KELLER@BAKERBOTTS.COM
CHRISTOPHER GENE KING
NEW YORK CITY LAW DEPARTMENT
6-143
100 CHURCH STREET
NEW YORK , NY 10007
212-788-0303
CKING@LAW.NYE.GOV
SCOTT NORMAN KOSCHWITZ
OFFICE OF THE ATTORNEY GENERAL
165 CAPITOL AVENUE
HARTFORD, CT 06106
860-808-5250
SCOTT.KOSCHWITZ@CT.GOV

PAUL KUGELMAN, JR.
OFFICE OF THE ATTORNEY GENERAL
202 NORTH 9TH STREET
RICHMOND, VA 23219
804-786-3811
PKUGELMAN@OAG. STATE. VA. US
EDMUND GERARD LACOUR, JR.
OFFICE OF THE ATTORNEY GENERAL
501 WASHINGTON AVENUE
MONTGOMERY, AL 36130
334-353-2196
ELACOUR@AGO.STATE.AL.US
JEREMIAH LANGSTON
OFFICE OF THE ATTORNEY GENERAL
JUSTICE BUILDING
215 NORTH SANDERS
HELENA, MT 59620-1401
JEREMIAH.LANGSTON@MT.GOV
JUSTIN D. LAVENE
ASSISTANT ATTORNEY GENERAL
STATE OF NEBRASKA
2115 STATE CAPITOL BUILDING
P.O. BOX 98920
LINCOLN, NE 68509-8920
402-471-2682
JUSTIN.LAVENE@NEBRASKA.GOV
402-471-3297(Fax)
JOHN DAVID LAZZARETTI
SQUIRE PATTON BOGGS (US) LLP
4900 KEY TOWER
127 PUBLIC SQUARE
CLEVELAND, OH 44114-1304
216-479-8350
JOHN.LAZZARETTI@SQUIREPB.COM

HOWARD A. LEARNER
ENVIRONMENTAL LAW & POLICY CENTER
35 E. WACKER DRIVE
SUITE 1600
CHICAGO, IL 60601
312-673-6500
HLEARNER@ELPC.ORG
ANGELA JEAN LEVIN
TROUTMAN PEPPER HAMILTON SANDERS
LLP
THREE EMBARCADERO CENTER
SUITE 800
SAN FRANCISCO, CA 94111
415-477-5700
ANGELA.LEVIN@TROUTMANSANDERS.COM
ELBERT LIN
HUNTON ANDREWS KURTH LLP
951 EAST BYRD STREET,
RIVERFRONT PLAZA
EAST TOWER
RICHMOND, VA 23219
804-788-7202
ELIN@HUNTON.COM
THOMAS ALLEN LORENZEN
CROWELL & MORING LLP
1001 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004-2595
202-624-2789
TLORENZEN@CROWELL.COM

MELISSA JOY LYNCH
NATURAL RESOURCES DEFENSE COUNCIL
1152 15TH STREET, NW
SUITE 300
WASHINGTON, DC 20005
202-717-8296
LLYNCH@NRDC.ORG
MITHUN MANSINGHANI
SOLICITOR GENERAL OF OKLAHOMA
313 N.E. 21ST STREET
OKLAHOMA CITY , OK 73105
405-521-3921
MITHUN.MANSINGHANI@OAG.OK.GOV
CARROLL WADE MCGUFFEY, III
TROUTMAN PEPPER HAMILTON SANDERS
LLP
600 PEACHTREE STREET, NE
SUITE 3000
ATLANTA, GA 30308-2216
404-885-3698
MACK.MCGUFFEY@TROUTMAN.COM
ANNE MINARD
OFFICE OF THE ATTORNEY GENERAL
VILLAGRA BUILDING
408 GALISTEO STREET
SANTA FE, NM 87504
505-490-4045
AMINARD@NMAG.GOV
C. GRADY MOORE, III
BALCH & BINGHAM LLP
1901 6TH AVENUE NORTH
SUITE 1500
BIRMINGHAM, AL 35201
205-251-8100
GMOORE@BALCH.COM

LISA JO MORELLI
OFFICE OF THE ATTORNEY GENERAL
PO BOX 112
TRENTON, NJ 08625-0112
609-633-8713
LISA.MORELLI@DOL.LPS.STATE.NJ.US
ELIZABETH BAKER MURRILL
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 94005
BATON ROUGE, LA 70084-9005
225-326-6766
MURRILLE#AG.LOUISIANA.GOV
MICHAEL J. MYERS
OFFICE OF THE ATTORNEY GENERAL
THE CAPITOL
ALBANY, NY 12224-0341
518-776-2382
MICHAEL.MYERS@AG.NY.GOV
ERIC R. OLSON
OFFICE OF THE ATTORNEY GENERAL
1300 BROADWAY
10TH FLOOR
DENVER, CA 80203
720-508-6548
ERIC.OLSON@COAG.GOV
THOMAS FRANK PEPE
PEPE & NEMIRE, LLC
1450 MADRUGA AVENUE
SUITE 202
CORAL GABLES, FL 33146
305-667-2564
THOMASPEPE@PEPENEMIRE.COM

NICHOLAS FRANK PERSAMPIERIZ
OFFICE OF THE ATTORNEY GENERAL
109 STATE STREET
MONTPELIER, VT 05609-1001
802-828-6902
NICK. PERSAMPIERI@VERMONT.GOV
ANDREW ALAN PINSON
OFFICE OF THE GEORGIA ATTORNEY
GENERAL
40 CAPITAL SQUARE SW
ATLANTA, GA 30334-1300
404-651-9453
APINSON@LAW.GA.GOV
KEVIN JAMES POLONCARZ
COVINGTON & BURLING LLP
SALESFORCE TOWER
415 MISSION STREET
SUITE 5400
SAN FRANCISCO , CA 94105-2533
415-591-6000
KPOLONCRAZ@COV.COM
CHRISTOPHER HURIAUX REITZ
OFFICE OF THE ATTORNEY GENERAL
PO BOX 40117
OLYMPIA, WA 98504-0117
360-586-4614
CHRIS.REITZ@ATG.WA.GOV
YAAKOV M. ROTH
JONES DAY
51 LOUISIANA AVE., NW
WASHINGTON, DC 20001
202-879-3939
YROTH@JONESDAY.COM

DANIEL ISAAC ROTTENBERG
OFFICE OF THE ATTORNEY GENERAL,
ENVIRONMENTAL BUREAU
69 WEST WASHINGTON STREET
SUITE 1800
CHICAGO, IL 60602
312-814-3816
DROTTENBERG@ATG.STATE.IL.US
DEAN JOHN SAUER
OFFICE OF THE MISSOURI ATTORNEY
GENERAL
PO BOX 899
JEFFERSON CITY, MO 65102
573-751-8807
JOHN.SAUER@AGO.MO.GOV
JOSEPH ANTHONY SCALFANI
OFFICE OF MISSISSIPPI GOVERNOR
PO BOX 139
JACKSON, MS 39205
601-576-2807
JOSEPH.SCLAFANI@GOVERNOR.MS.GOV
EMILY CHURCH SCHILLING
HOLLAND & HART, LLP
901 K STREET, NW
SUITE 850
WASHINGTON, DC 20001
202-654-6922
ECSCHILLING@HOLLANDHART.COM
GREGORY STAGE SCHULTZ
OFFICE OF THE ATTORNEY GENERAL
STATE OF RHODE ISLAND
150 SOUTH MAIN STREET
PROVIDENCE, RI 02903
401-274-4400
GSCHULTZ@RIAG.RI.GOV

SCOTT SCHWARZ
CITY OF PHILADELPHIA LAW DEPARTMENT
ONE PARKWAY BUILDING
1515 ARCH STREET
PHILADELPHIA, PA 19102
215-683-5170
SCOTT.SCHWARZ@PHILA.GOV
PAUL MARTIN SEBY
GREENBERG TRAURIG, LLP
1144 15TH STREET
SUITE 3300
DENVER, CO 80202
303-572-6584
SEBYP@GTLAW.COM
LINDSAY S. SEE
SOLICITOR GENERAL OF STATE OF WEST
VIRGINIA
STATE CAPITOL COMPLEX
BUILDING 1
ROOM E-26
CHARLESTON, WV 25305
304-558-2021
LINDSAY.S.SEE@WVAGO.GOV
JAMES EMORY SMITH, JR.
ASSISTANT DEPUTY ATTORNEY GENERAL
STATE OF SOUTH CAROLINA
P.O. BOX 11549
COLUMBIA, SC 29211
803-734-3680
AGESMITH@SCAG.GOV

BENNA RUTH SOLOMON
CORPORATION COUNSEL OF THE CITY OF
CHICAGO
APPEALS DIVISION
2 NORTH LASALLE STREET,
SUITE 800
CHICAGO , IL 60602
312-744-7764
BENNA.SOLOMON@CITYOFCHICAGO.ORG
JOANNE MARIE SPALDING
SIERRA CLUB
2101 WEBSTER STREET
SUITE 1300
OAKLAND, CA 94612
415-977-5725
JOANNE.SPALDING@SIERRACLUB.ORG
ASHER PARIS SPILLER
OFFICE OF THE ATTORNEY GENERAL
PO BOX 629
RALEIGH, NC 27602
919-716-6050
ASPILLER@NCDOJ.GOV
HEIDI PARRY STERN
OFFICE OF THE NEVADA ATTORNEY
GENERAL (LAD VEGAS)
555 EAST WASHINGTON AVENUE
SUITE 3100
LAS VEGAS, NV 89101
HSTERN@AG.NV.GOV
JUDD EDWARD STONE II
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 12548
AUSTIN, TX 78711-2548
512-936-1700
JUDD.STONE@OAG.TEXAS.GOV

TIMOTHY EUGENE SULLIVAN
OFFICE OF THE ATTORNEY GENERAL
1515 CLAY STREET
PO BOX 70550
OAKLAND, CA 94612-0550
510-622-4038
TIMOTHY.SULLIVAN@DOJ.CA.GOV
PETER SURDO
OFFICE OF THE ATTORNEY GENERAL
TOWN SQUARE TOWER
445 MINNESOTA STREET
ST. PAUL, MN 55101-2127
651-757-1061
PETER.SURDO@AG.STATE.MN.US
TREG R. TAYLOR
OFFICE OF THE ATTORNEY GENERAL
1031 WEST 4TH AVENUE
SUITE 200
ANCHORAGE, AK 99501
907-269-5200
TREG. TAY LOR@ALASKA.GOV
AIMEE DIANE THOMSON
OFFICE OF THE ATTORNEY GENERAL
1600 ARCH STREET
SUITE 300
PHILADELPHIA, PA 19103
267-940-6696
ATHOMSON@ATTORNEYGENERAL.GOV
EUGENE MARC TRISKO
LAW OFFICES OF EUGENE M. TRISKO
PO BOX 330133
ATLANTIC BEACH, FL 32233
304-258-1977
EMTRISKO7@GMAIL.COM

RICHARD UMOFF
SOLAR ENERGY INDUSTRIES ASSOCIATION
600 14TH STREET, NW
SUITE 400
WASHINGTON, DC 20005
202-556-2877
RUMOFF@SEIA.ORG
GILLIAN E. WENER
MICHIGAN DEPARTMENT OF ATTORNEY
GENERAL
P.O. BOX 30755
LANSING, MI 48909
517-335-7664
WENERG@MICHIGAN.GOV
DAVID MICHAEL WILLIAMSON
WILLIAMSON LAW & POLICY
1850 M STREET NW
SUITE 840
WASHINGTON, DC 20036
202-256-6155
MAXWILLIAMSON@WILLIAMSONLAWPOLIC
Y.COM
BRITTANY E. WRIGHT
CHESAPEAKE BAY FOUNDATION
6 HERNDON AVENUE
ANNAPOLIS, MD 21403
443-482-2077
BWRIGHT@CBF.ORG
MICHAEL A. ZODY
PARSONS BEHLE & LATIMER
201 SOUTH MAIN STREET
SUITE 1800
SALT LAKE CITY, UT 84111
80-532-1234
MZODY@PARSONSBEHLE.COM

